                 Fiscal Year 2003 Evaluation of Information Security

                          at the Railroad Retirement Board 

                        Report No. 03-11, September 15, 2003 



                                    INTRODUCTION


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
information security at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid out in excess of $8 billion in benefits during
fiscal year (FY) 2002.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity, and the end-user
computing system, which supports the agency’s local (LAN) and wide area networks.

The major application systems correspond to the RRB’s critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration. Each
application system is comprised of one or more programs.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L. 107-
347), Title III, the Federal Information Security Management Act of 2002 (FISMA).
FISMA, like its predecessor the Government Information Security Reform Act (GISRA),
establishes program management and evaluation requirements including:

      •   annual agency program reviews,
      •   Inspector General security evaluations,
      •   an annual agency report to the Office of Management and Budget (OMB), and
      •   an annual OMB report to Congress.

Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide integrity, confidentiality and availability. FISMA requires agencies to report
significant deficiencies in policy, procedure or practice as material weaknesses in
internal control in reports issued pursuant to the Federal Managers’ Financial Integrity
Act.
The OIG conducted security evaluations pursuant to GISRA during FY 2001 and 

FY 2002 and issued reports dated February 5, 2002 and August 27, 2002. These 

evaluations disclosed weaknesses throughout the RRB’s information security program. 

The OIG cited the agency with material weaknesses due to significant deficiencies in 

access controls in both the mainframe and end-user computing environments and in the 

training provided to staff with significant security responsibilities. Evaluations conducted 

during FY 2000 and FY 2001 by specialists under contract to the OIG had disclosed the 

need for improvements in security controls in both the data processing and end-user 

computing support systems. 


Objective, Scope and Methodology

The objective of this evaluation was to fulfill the requirements of FISMA by assessing
the effectiveness of the RRB’s information system security program and practices
during FY 2003.

In order to accomplish our objective, we monitored agency efforts to implement
corrective actions in response to the findings and recommendations presented in prior
OIG audit reports as well as third-party evaluations conducted at the request of the OIG
including:

   •	 “Information Systems Security Assessment Report,” Defensive Information
      Operations Group, National Security Agency, June 28, 2000;
   •	 “Review of RRB’s Compliance with the Critical Infrastructure Assurance
      Program,” August 9, 2000, OIG Report #00-13;
   •	 “Review of Document Imaging: Railroad Unemployment Insurance Act
      Programs,” November 17, 2000, OIG Report #01-01;
   •   “Site Security Assessment,” Blackbird Technologies, Inc., July 20, 2001;
   •   “Security Controls Analysis,” Blackbird Technologies, Inc., August 17, 2001;
   •	 “Review of Information Security at the Railroad Retirement Board,” February 5,
      2002, OIG Report #02-04;
   •	 “Review of the Railroad Retirement Board’s Controls Over the Access,
      Disclosure, and Use of Social Security Numbers by Third Parties,” August 26,
      2002, OIG Report # 02-11; and
   •	 “Fiscal Year 2002 Evaluation of Information Security at the Railroad Retirement
      Board,” August 27, 2002, OIG Report #02-12.

We also considered the findings and recommendations reported as a result of the
following evaluations conducted during FY 2003:

   •	 “Evaluation of the Self-Assessment Process for Information System Security,”
      December 27, 2002, OIG Report #03-02;
    •	 “Evaluation of RRB E-Government Initiative: RUIA Contribution Internet
       Reporting and Payment,” December 27, 2002, OIG Report #03-03; and
    •	 “Review of the Systems Development Life Cycle for End-user Computing,”
       September 8, 2003, OIG Report #03-10.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters during May through August 2003.

                                 RESULTS OF EVALUATION

Agency management continues the process of strengthening information security.
However, significant deficiencies in access controls and program management continue
to exist. As a result, information security remains an area of material weakness in
internal control.

The OIG’s conclusions with respect to information system security are based on:

    •	 previously reported weaknesses in training and access controls for which
       corrective action has not been completed;
    •	 FY 2003 evaluations that disclosed weaknesses in the agency’s information
       security program; and
    •	 the OIG’s assessment of data security and access controls related to the RRB’s
       E-Government initiative for RUIA contributions.

Our findings with respect to the implementation status of prior recommendations for
corrective action and a summary of weaknesses identified during our FY 2003
evaluations follow.

Status of Prior Recommendations for Corrective Action

Responsible management and staff in the Bureau of Information Services (BIS) have
implemented, or plan to implement, most of the recommendations for improved
information security resulting from evaluations by the OIG and technical specialists
under contract to the OIG.

The OIG monitored 119 recommendations for corrective action. To date, 61 have been
fully implemented and ten have been rejected.1

Although agency management has completed many of the recommended corrective
actions, the RRB has not completed corrective action to remediate the previously


1
  These totals include recommendations presented in OIG Report #03-02 and #03-03. These totals do
not include recommendations presented in OIG Report #03-10 which were finalized after the end of
fieldwork and for which the status of implementation was not monitored during FY 2003.
reported deficiencies in training and access controls that were the basis for the OIG’s
finding of material weakness.

A summary of the status of audit recommendations pertaining to information system
security is presented in Appendix I.

Evaluations Conducted During FY 2003

During FY 2003, the OIG continued to provide oversight to the RRB’s information
security program by conducting an evaluation of the effectiveness of the agency’s self-
assessment process for information system security. We also assessed the
effectiveness of the RRB’s efforts in incorporating security requirements into the
systems development life cycle for end-user computing. These evaluations revealed
weaknesses in both processes that undermine the effectiveness of the agency’s
information security program.

We also documented and assessed security procedures over the Internet DC-1 filing
process, including data security and access to RRB systems in connection with the
RRB E-Government initiative for RUIA contributions. This project identified weaknesses
in the implementation and administration of security features in this Internet-based
system.

Security Self-Assessment Process

Information security self-assessment is a key part of the annual agency program review
process. The self-assessment process is used to determine the current status of a
security program, and where necessary, to establish a target for improvement. The
National Institute of Standards and Technology (NIST) has published a self-assessment
guide that presents a standardized approach for assessing system security.

The RRB’s self-assessment process for information system security has not been
effective in assessing the current status of the RRB’s security program as a basis for
future improvement. Our review disclosed that the agency’s FY 2002 self-assessment
process was weakened by inadequate coverage of NIST objectives, elements and
techniques; anonymous, incomplete responses to the questionnaire that served as its
basic evaluation tool; and a lack of supporting documentation.

The RRB’s FY 2003 self-assessment is currently underway. The process is being
facilitated with a NIST compliant tool, but has not been evaluated by the OIG for
efficiency and effectiveness.

Consideration of Security in the Systems Development Life Cycle for End-User
Computing

Existing procedures and controls are not adequate to ensure the integration of security
in systems developed for the end-user computing environment in accordance with
existing agency requirements.
In addition, the RRB has not implemented a risk-based approach to pre-implementation
authorization of systems development projects. In a risk-based approach to the
systems development life cycle, higher levels of management authorize implementation
of those projects that pose the greatest risk.

We attribute these weaknesses to the lack of a comprehensive certification and
accreditation process. As a result, newly developed systems exhibit a lack of applied
audit trails, weak authentication methods and poor access controls. 2

Security Procedures Over the Internet DC-1 Filing Process

As part of its responsibilities under the RUIA, the RRB collects employer contributions
which are used to fund the RUIA program. Employers make contributions and report
them to the RRB on a quarterly basis using Form DC-1. In March 2002, the RRB
modified the existing payment system to add a new option for electronic payment over
the Internet, and Internet filing of the DC-1 reports for those railroads that adopt the
Internet payment option.

The OIG’s assessment of security procedures over the Internet DC-1 filing process
disclosed that:

    •	 the contractor administering the system had not fully implemented restrictions on
       password use and limits on log-on attempts;
    •	 authorized users were sharing their account, password and personal
       identification number with unauthorized users;
    •	 certification of the Internet DC-1 cannot be adequately validated resulting in the
       risk of repudiation of the information contained therein; and
    •	 the memorandum of understanding governing this process does not adequately
       address the privacy and security of the data being transmitted, nor were all
       concerned entities party to the memorandum of understanding.

Plan of Action and Milestones is Not an Effective Tool

The RRB’s plan of action and milestones (POA&M) does not adequately articulate
weaknesses in the agency’s information security program and planned corrective
actions.

OMB has mandated the development of a formal POA&M to identify vulnerabilities in
information security and track the progress of corrective action. OMB requires the
inspectors general, as part of the FISMA reporting process, to assess whether their

2
  BIS declined the OIG’s recommendation (Report #03-10) for development of a formal certification and
accreditation process. In their response, management stated that “rather than develop new or changed
procedures, the issue of non-compliance with existing procedures should be addressed.” They plan to
defer a determination concerning the need for a formal certification and accreditation process until NIST
finalizes pertinent standards. NIST is currently circulating draft standards for Federal certification and
accreditation processes (NIST SP 800-37).
agencies have developed a POA&M that serves as the authoritative tool used to identify
and monitor agency actions. In addition, OMB has cited the failure to maintain a
comprehensive POA&M as a significant deficiency in an agency’s security program.

The RRB’s POA&M is incomplete and insufficiently detailed. The 10 outstanding
vulnerabilities presented in the agency’s POA&M do not include known areas of
vulnerability, such as:
   •   LAN backup,
   •   service packs in the headquarters end-user computing environment,
   •   the mainframe database management system, and
   •   the existing certification and accreditation process.

In addition, we believe that the POA&M should be expanded to distinguish between
certain vulnerabilities related to lack of training and insufficient policy and procedure.
The agency has combined some vulnerabilities for which the corrective actions are
largely un-related. The POA&M currently distinguishes between general security
awareness training and the need for specialized vendor supplied training. As a basis for
more effective prioritization, the POA&M should identify three levels of training:

   •   security awareness training for all employees;
   •	 higher level training for staff outside BIS who participate in security-related
      processes, such as user analysts and systems administrators; and
   •	 specialized technical training for employees in BIS who have significant
      responsibility for security administration or systems development.

Similarly, the RRB’s current POA&M presents a single vulnerability relating to policies
and procedures that include revisions to three major areas of responsibility that are
addressed in separate agency documents. The POA&M should be expanded to
address the three areas separately:

   •   overall security,
   •   disaster recovery, and
   •   systems development.

We also noted that the agency’s POA&M process places the burden of developing
action plans on the agency’s security officer. Although agency procedure requires
program officials to furnish plans detailing recommended corrective action for control
weaknesses identified during their program reviews, such plans are not consistently
prepared and submitted.

The POA&M is not the only tool being used within the RRB to monitor and track agency
progress in achieving an effective, compliant system of information system security.
The agency’s security officer maintains detailed records concerning the status of known
vulnerabilities and the OIG monitors the status of its recommendations for corrective
action, and circulates status reports to responsible agency management on a semi-
annual basis.

The OIG does not consider the POA&M to be an effective tool for identifying
vulnerabilities and monitoring agency corrective actions according to criteria established
by OMB. However, the process of remediation, as a whole, is adequately coordinated
and monitored using other tools. Accordingly the OIG does not consider the
deficiencies in the RRB’s POA&M to be a material weakness in the agency’s security
program.

Recommendations

We recommend that BIS:

   1. review and revise the RRB’s POA&M, and

   2. remind program managers to identify vulnerabilities and develop action plans.

Management’s Response

Management disagrees with the recommendation to review and revise the RRB’s
POA&M stating that “[t]he POA&M was designed by the Office of Management and
Budget (OMB) to fulfill their reporting requirements” and that “[w]e have received no
feedback from OMB to indicate the reports are insufficient or inadequate.”

BIS has agreed to issue a reminder to program officials concerning their responsibility to
report any identified information security vulnerability and to provide a corresponding
plan of action for remediation.

The full text of management’s response is included as Appendix II to this report.

OIG’s Comments

OMB Memorandum 03-19, dated August 6, 2003, specifically directs the Inspectors
General to report on the sufficiency of agency POA&M in their annual FISMA mandated
report on information security. Since OMB has asked for the OIG’s assessment, the
absence of any prior criticism by OMB has no significance to our evaluation.

The OIG’s criticism of the RRB’s POA&M pertains to its value as the designated
medium of internal and external reporting for which purpose we found it to be
inadequately detailed in several respects. The availability of other information does not
mitigate the impact of inadequacies on those readers, such as OMB, who may expect to
rely on the POA&M as the sole source of information about identified vulnerabilities and
the status of remediation efforts. Our acknowledgement of the agency’s other
monitoring tools was intended to recognize that deficiencies in the POA&M were not
due to a lack of management oversight or information.
Access to the SURGE System is Not Granted Based on Least Privilege

Access to the Survivor G-90 Expeditor (SURGE) system is not granted based on the
principle of least privilege. Least privilege is the practice of restricting a user's access
(to data files, processing capability, or peripherals) or type of access (read, write,
execute, or delete) to the minimum necessary to perform his or her job. As a result,
some individuals have received and retained access to a system that they did not
require for the performance of their assigned duties.

The SURGE system automates requests for an earnings and computation record used
in the payment of survivor benefits. Access to the SURGE system is granted to those
individuals who are also granted access to the DATA-Q system, an informational
system that provides the current status of RRA benefits. The SURGE system accepts
data input and produces documentary evidence of certain computations used in annuity
calculations based on that input.

Decisions concerning security should be risk-based, documented and periodically
subject to review. In establishing security requirements for the SURGE system,
management did not recognize that granting access to all DATA-Q users would weaken
security.

Recommendation

   3. 	 The Chief Information Officer should obtain an evaluation of the security needs of
        the SURGE system from the system owner.

Management’s Response

Management concurs with the recommendation and has agreed to request that the
system owners of DATAQ and Surge review the access granted to users employing the
principle of least privilege. Should the results of this review indicate that users having
access to the SURGE system violates the least privilege principle, the Chief Information
Officer will request system changes as appropriate.

The full text of management’s response is included as Appendix II to this report.
                                                                                                                      Appendix I
               SUMMARY OF AUDIT RECOMMENDATIONS PERTAINING TO INFORMATION SECURITY
                                       As of March 31, 2003

                                                                                   RECOMMENDATIONS FOR CORRECTIVE ACITON

                                                                        REPORT
                                                                         DATE       OFFERED     REJECTED    IMPLEMENTED
  National
  Security     Information Systems Security Assessment Report           06/28/00      19            5             8
  Agency
OIG Report     Review of RRB’s Compliance with the Critical
                                                                        08/09/00       2                          2
  #00-13       Infrastructure Assurance Program

OIG Report     Review of Document Imaging: Railroad Unemployment
                                                                        11/17/00       3                          2
 # 01-01       Insurance Act Programs

  Blackbird
               Site Security Assessment                                 07/20/01      12            2             7
Technologies

  Blackbird
               Security Controls Analysis                               08/17/01      38            3            28
Technologies

OIG Report     Review of Information Security at the Railroad
                                                                        02/05/02      28                         12
  #02-04       Retirement Board
               Review of RRB’s Controls Over the Access,
OIG Report
               Disclosure, and Use of Social Security Numbers by        08/26/02       1                          1
 # 02-11
               Third Parties
OIG Report     Fiscal Year 2002 Evaluation of Information Security at
                                                                        08/27/02       3                          1
 # 02-12       the Railroad Retirement Board

OIG Report     Evaluation of the Self-Assessment Process for
                                                                        12/27/02       4                          -
  #03-02       Information Security

OIG Report     Evaluation of the RRB E-Government Initiative: RUIA
                                                                        12/27/02       9                          -
 # 03-03       Contribution Internet Reporting and Payment
                                                                                     =====        =====         =====
                                                                                      119           10            61
